No. ________

In The

Supreme Court of the United States
_______

JOSHUA E. FRANKEL,
Petitioner,

v.

UNITED STATES OF AMERICA, ET AL.,
Respondents.

_______
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

_______

PETITION FOR WRIT OF CERTIORARI
_______
Allen W. Beasley
Counsel of Record
Michael F. Imprevento
Breit Cantor Grana Buckner, PLLC
600 22nd Street, Suite 402
Virginia Beach, Virginia 23451
(757) 622-6000
abeasley@breitcantor.com
mimprevento@breitcantor.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 (800) 847-0477

i
QUESTIONS PRESENTED
Whether the Fourth Circuit erred in applying an
unduly restrictive “situs and status test” for the
determination of whether the acts at issue were
“incident to service” which test is far beyond the
established policy reasons underlying the so called
Feres doctrine.
Whether there is a conflict between District Courts
and Courts of Appeal in the United States regarding
the application of the “incident to service” test which
requires guidance from this Court to not only avoid
inconsistent results but ultimately to prevent a
significant departure from Congress’ original intent
in enacting 28 U.S.C. §2674 and its waiver of
sovereign immunity implicating a concern for
separation of powers.
Whether the Fourth Circuit, in affirming the District
Court’s dismissal of the Plaintiff’s uninsured
motorist claim based upon Feres immunity,
misapplied Section 38.2-2206 of the Code of Virginia,
as made and provided, which would have allowed a
judgment against an “Immune Defendant.”

ii
PARTIES TO THE PROCEEDING
Petitioner Joshua E. Frankel, was PlaintiffAppellant below and was active duty with the
United States Navy at the time of the accident.
Respondent is the United States of America, which
was Defendant-Appellee below.
Additional party to this litigation is Government
Employees Insurance Company, as Intervenor,
which issued a first party contract of insurance to
Petitioner which contained an uninsured motorist
provision.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDINGS ......................... ii
TABLE OF CONTENTS ............................................ iii
TABLE OF AUTHORITIES ....................................... v
OPINIONS BELOW .................................................... 1
JURISDICTION .......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ..................................... 1
STATEMENT OF THE CASE .................................. 10
1. Facts ................................................................. 10
2. Procedural History ........................................... 12
REASONS FOR GRANTING THE PETITION ....... 14
1. Review by this Court is necessary to fully
and finally set forth a true “incident to
service” test, so that it may reconcile
actual conflicts in various courts of the
United States that have resulted in
years of inconsistent results as service
members seek redress for those
classifications of torts that do not
implicate second guessing military
discipline or judgment. ..................................... 14

iv
a. The extent to which the original policy
reasons set forth by the Feres court have
been
broadened
by
disparate
applications of the “incident to service
test” by federal courts has created a
significant separation of powers concern. ........ 14
2. The Fourth Circuit erred in affirming the
District Court’s dismissal of the
Petitioner’s Complaint, specifically that
aspect of the Complaint that would have
allowed recovery in accordance with his
personal first party policy of insurance,
which incorporated provisions mandated
by Code of Virginia § 38.2-2206. ...................... 24
CONCLUSION .......................................................... 28
APPENDIX:
Opinion of the United States Court of Appeals
for the Fourth Circuit, dated April 4, 2020 ......... A1
Opinion of the United States District Court
for the Eastern District of Virginia, Norfolk
Division, dated January 7, 2019 ........................ A18

v
TABLE OF AUTHORITIES
CASES
Bartholomew v. Burger King Corp., 21 F.
Supp. 3d 1089 (2014)............................................. 19
Boggs-Wilkerson v. Anderson, No. 2:10CV518,
2011 U.S. Dist. LEXIS 149994 (E.D. Va.
Nov. 17, 2011) adopted by 2011 U.S. Dist.
LEXIS 149798 (E.D. Va. Dec. 30, 2011) ......... 26, 27
Bois v. Marsh, 255 U.S. App. D.C. 248,
801 F.2d 462 (D.C.Cir. 1986) ................................ 18
Bon v. United States, 802 F.2d 1092
(9th Cir. 1986) ....................................................... 16
Brooks v. United States, 337 U.S. 49
(1949) ......................................................... 16, 22, 23
Costo v. United States, 248 F.3d 863
(9th Cir. 2001) ....................................................... 20
Dreier v. United States, 106 F.3d 844
(9th Cir. 1997) ................................................. 15, 17
Durant v. Neneman, 884 F.2d 1350
(10th Cir. 1989) ............................................... 18, 19
Feres v. United States, 340 U.S. 135 (1950) ..... passim
Martelon v. Temple, 747 F.2d 1348 (10th Cir.
1984), cert. denied, 471 U.S. 1135, 86 L. Ed.
2d 694, 105 S. Ct. 2675 (1985) .............................. 18

vi
Miller v. Newbauer, 862 F.2d 771
(9th Cir. 1988) ....................................................... 18
Parker v. United States, 611 F.2d 1007
(5th Cir. 1980) ....................................................... 20
Pierce v. United States, 813 F.2d 349
(11th Cir. 1987) ............................................... 22, 23
Schoenfeld v. Quamme, 492 F.3d 1016
(9th Cir. 2007) ....................................................... 15
Snow v. USMC, 2011 U.S. Dist. LEXIS 45380,
2011 WL. 1599231 (E.D. Tex. 2011) ..................... 20
Stewart v. United States, 90 F.3d 102
(4th. Cir. 1996) ...................................................... 18
Taber v. Maine, 67 F.3d 1029 (2d Cir. 1995)............ 20
United States v. Brown, 348 U.S. 110 (1954) ..... 17, 22
United States v. Johnson, 481 U.S. 681
(1987) ............................................................. passim
United States v. Shearer, 473 U.S. 52
(1985) ................................................... 14, 15, 22, 23
Witt v. United States, 2009 U.S. Dist. LEXIS
9451 (E.D. Cal. 2009) ............................................ 20
STATUTES AND RULES
28 U.S.C. § 2674 .................................................... 1, 16

vii
28 U.S.C. § 2680 .................................................... 3, 17
Va. Code § 38.2-2206 ......................................... passim
Federal Rule of Civil Procedure 12(b)(1) .................. 13
Supreme Court of the United States Rule 12 ............ 1
Supreme Court of the United States Rule 13 ............ 1

1
Joshua Frankel respectfully petitions for a writ of
certiorari to review the judgment of the United
States Court of Appeals for the Fourth Circuit.
OPINIONS BELOW
The April 14, 2020 opinion of the U.S. Court of
Appeals for the Fourth Circuit is unpublished (Pet.
App. 1). The order of the United State District Court
for the Eastern District of Virginia dismissing
Petitioner’s case, dated January 8, 2019 (Pet. App.
A18) is unreported.
JURISDICTION
The Court has jurisdiction because Petitioner seeks
review of a final order of the United States Court of
Appeals for the Fourth Circuit pursuant to 28 U.S.C.
§ 1254 and Rules 12 and 13 of the Rules of the
Supreme Court of the United States and the petition
is timely filed within 90 days of the April 14, 2020
Circuit Court decision.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
28 U.S. Code § 2674
The United States shall be liable, respecting
the provisions of this title relating to tort
claims, in the same manner and to the same
extent as a private individual under like

2
circumstances, but shall not be liable for
interest prior to judgment or for punitive
damages.
If, however, in any case wherein death was
caused, the law of the place where the act or
omission complained of occurred provides, or
has been construed to provide, for damages
only punitive in nature, the United States
shall be liable for actual or compensatory
damages, measured by the pecuniary injuries
resulting from such death to the persons
respectively, for whose benefit the action was
brought, in lieu thereof.
With respect to any claim under this chapter
[28 USCS §§ 2671 et seq.], the United States
shall be entitled to assert any defense based
upon judicial or legislative immunity which
otherwise would have been available to the
employee of the United States whose act or
omission gave rise to the claim, as well as any
other defenses to which the United States is
entitled.
With respect to any claim to which this section
applies, the Tennessee Valley Authority shall
be entitled to assert any defense which
otherwise would have been available to the
employee based upon judicial or legislative
immunity, which otherwise would have been
available to the employee of the Tennessee
Valley Authority whose act or omission gave
rise to the claim as well as any other defenses
to which the Tennessee Valley Authority is
entitled under this chapter [28 USCS §§ 2671
et seq.].

3
28 U.S. Code § 2680
The provisions of this chapter and Section 1346(b) of
this title shall not apply to(a) Any claim based upon an act or omission of an
employee of the Government, exercising due
care, in the execution of a statute or
regulation, whether or not such statute or
regulation be valid, or based upon the exercise
or performance or the failure to exercise or
perform a discretionary function or duty on
the part of a federal agency or an employee of
the Government, whether or not the discretion
involved be abused.
(b) Any claim arising out of the loss, miscarriage,
or negligent transmission of letters or postal
matter.
(c) Any claim arising in respect of the assessment
or collection of any tax or customs duty, or the
detention of any goods, merchandise, or other
property by any officer of customs or excise or
any other law enforcement officer, except that
the provisions of this chapter and section
1346(b) of this title apply to any claim based
on injury or loss of goods, merchandise, or
other property, while in the possession of any
officer of customs or excise or any other law
enforcement officer, if1) the property was seized for the
purpose of forfeiture under any
provision of Federal law providing
for the forfeiture of property other
than as a sentence imposed upon
conviction of a criminal offense;

4
2) the interest of the claimant was not
forfeited;
3) the interest of the claimant was not
remitted or mitigated (if the
property was subject to forfeiture);
and
4) the claimant was not convicted of a
crime for which the interest of the
claimant in the property was subject
to forfeiture under a Federal
criminal forfeiture law.
(d) Any claim for which a remedy is provided by
chapter 309 or 311 of title 46 relating to
claims or suits in admiralty against the
United States.
(e) Any claim arising out of an act or omission of
any employee of the Government in
administering the provisions of sections 1-31
of Title 50, Appendix.
(f) Any claim for damages caused by the
imposition or establishment of a quarantine
by the United States.
(g) [Repealed]
(h) Any claim arising out of assault, battery, false
imprisonment,
false
arrest,
malicious
prosecution, abuse of process, libel, slander,
misrepresentation, deceit, or interference with
contract rights: Provided, that, with regard to
acts or omissions of investigative or law
enforcement officers of the United States
Government, the provisions of this chapter
and section 1346(b) of this title shall apply to
any claim arising, on or after the date of the
enactment of this provision, out of assault,
battery, false imprisonment, false arrest,

5
abuse of process, or malicious prosecution.
For the purpose of this subsection,
“investigative or law enforcement officer”
means any officer of the United States who is
empowered by law to execute searches, to
seize evidence, or to make arrests for
violations of Federal law.
(i) Any claim for damages caused by the fiscal
operations of the Treasury or by the
regulation of the monetary system.
(j) Any claim arising out of the combatant
activities of the military or naval forces, or the
Coast Guard, during time of war.
(k) Any claim arising in a foreign country.
(l) Any claim arising from the activities of the
Tennessee Valley Authority.
(m) Any claim arising from the activities of the
Panama Canal Company.
(n) Any claim arising from the activities of a
Federal land bank, a Federal intermediate
credit bank, or a bank for cooperatives.
Code of Virginia § 38.2-2206
A. Except as provided in subsection J, no policy or
contract of bodily injury or property damage liability
insurance relating to the ownership, maintenance,
or use of a motor vehicle shall be issued or delivered
in this Commonwealth to the owner of such vehicle
or shall be issued or delivered by any insurer
licensed in this Commonwealth upon any motor
vehicle principally garaged or used in this
Commonwealth unless it contains an endorsement
or provisions undertaking to pay the insured all
sums that he is legally entitled to recover as

6
damages from the owner or operator of an
uninsured motor vehicle, within limits not less than
the requirements of § 46.2-472. Those limits shall
equal but not exceed the limits of the liability
insurance provided by the policy, unless any one
named insured rejects the additional uninsured
motorist insurance coverage by notifying the insurer
as provided in subsection B of § 38.2-2202. This
rejection of the additional uninsured motorist
insurance coverage by any one named insured shall
be binding upon all insureds under such policy as
defined in subsection B. The endorsement or
provisions shall also obligate the insurer to make
payment for bodily injury or property damage
caused by the operation or use of an underinsured
motor vehicle to the extent the vehicle is
underinsured, as defined in subsection B. The
endorsement or provisions shall also provide for at
least $20,000 coverage for damage or destruction of
the property of the insured in any one accident but
may provide an exclusion of the first $200 of the loss
or damage where the loss or damage is a result of
any one accident involving an unidentifiable owner
or operator of an uninsured motor vehicle.
B. As used in this section:
"Bodily injury" includes death resulting from bodily
injury.
"Insured" as used in subsections A, D, G, and H,
means the named insured and, while resident of the
same household, the spouse of the named insured,
and relatives, wards or foster children of either,
while in a motor vehicle or otherwise, and any
person who uses the motor vehicle to which the

7
policy applies, with the expressed or implied consent
of the named insured, and a guest in the motor
vehicle to which the policy applies or the personal
representative of any of the above.
"Uninsured motor vehicle" means a motor vehicle
for which (i) there is no bodily injury liability
insurance and property damage liability insurance
in the amounts specified by § 46.2-472, (ii) there is
such insurance but the insurer writing the
insurance denies coverage for any reason
whatsoever, including failure or refusal of the
insured to cooperate with the insurer, (iii) there is
no bond or deposit of money or securities in lieu of
such insurance, (iv) the owner of the motor vehicle
has not qualified as a self-insurer under the
provisions of § 46.2-368, or (v) the owner or operator
of the motor vehicle is immune from liability for
negligence under the laws of the Commonwealth or
the United States, in which case the provisions of
subsection F shall apply and the action shall
continue against the insurer. A motor vehicle shall
be deemed uninsured if its owner or operator is
unknown.
A motor vehicle is "underinsured" when, and to the
extent that, the total amount of bodily injury and
property damage coverage applicable to the
operation or use of the motor vehicle and available
for payment for such bodily injury or property
damage, including all bonds or deposits of money or
securities made pursuant to Article 15 (§ 46.2-435 et
seq.) of Chapter 3 of Title 46.2, is less than the total
amount of uninsured motorist coverage afforded any
person injured as a result of the operation or use of
the vehicle.

8
"Available for payment" means the amount of
liability insurance coverage applicable to the claim
of the injured person for bodily injury or property
damage reduced by the payment of any other claims
arising out of the same occurrence.
If an injured person is entitled to underinsured
motorist coverage under more than one policy, the
following order of priority of policies applies and any
amount available for payment shall be credited
against such policies in the following order of
priority:
1. The policy covering a motor vehicle
occupied by the injured person at the time
of the accident;
2. The policy covering a motor vehicle not
involved in the accident under which the
injured person is a named insured;
3. The policy covering a motor vehicle not
involved in the accident under which the
injured person is an insured other than a
named insured.
Where there is more than one insurer providing
coverage under one of the payment priorities set
forth, their liability shall be proportioned as to their
respective underinsured motorist coverages.
Recovery under the endorsement or provisions shall
be subject to the conditions set forth in this section.
F. If any action is instituted against the owner or
operator of an uninsured or underinsured motor
vehicle by any insured intending to rely on the
uninsured or underinsured coverage provision or

9
endorsement of this policy under which the insured
is making a claim, then the insured shall serve a
copy of the process upon this insurer in the manner
prescribed by law, as though the insurer were a
party defendant. The provisions of § 8.01-288 shall
not be applicable to the service of process required
in this subsection. The insurer shall then have the
right to file pleadings and take other action
allowable by law in the name of the owner or
operator of the uninsured or underinsured motor
vehicle or in its own name. Notwithstanding the
provisions of subsection A, the immunity from
liability for negligence of the owner or operator of a
motor vehicle shall not be a bar to the insured
obtaining a judgment enforceable against the
insurer for the negligence of the immune owner or
operator, and shall not be a defense available to the
insurer to the action brought by the insured, which
shall proceed against the named defendant although
any judgment obtained against an immune
defendant shall be entered in the name of "Immune
Defendant" and shall be enforceable against the
insurer and any other nonimmune defendant as
though it were entered in the actual name of the
named immune defendant. Nothing in this
subsection shall prevent the owner or operator of
the uninsured motor vehicle from employing counsel
of his own choice and taking any action in his own
interest in connection with the proceeding.

10
STATEMENT OF THE CASE
1. Facts
On March 31, 2015, Petitioner was injured as
he was walking on a crosswalk within Naval
Station Norfolk, a military base in Norfolk,
Virginia. At that time and place, he was
struck by a vehicle negligently operated by
Javen Evonne Davis. Both Frankel and Davis
were on active duty at the time. Davis was
operating her personal vehicle on an errand to
obtain a dessert for a planned event at her
command, the U.S.S. Nitze (DDG-94). Ms.
Davis had full discretion as to the route she
was going to take, where and when she would
purchase it, and she was going to utilize her
own money but would later on be reimbursed.
She was not on duty. Petitioner was walking
to the gym on the base and had not yet
assumed his duties for the day but was going
to engage in physical exercise. He was not in
uniform. As a consequence of the collision
between Davis’ automobile and Frankel, she
was charged with reckless driving by civilian
base police. She appeared in United States
Magistrate’s Court and was found guilty of
reckless driving. It is important to note that
this was a civilian court which handles all of
the traffic offenses which occur on Naval Base
Norfolk and the military did not discipline Ms.
Davis, as is routine in military matters, and
did not conduct an internal JAGMAN
investigation and simply deferred to civilian
authority. The decision to purchase cake for a

11
birthday party is not being questioned. The
record does not support, other than the
purchasing of cake for a birthday party on the
ship, ANY military nexus to this purely
personal injury tort. The record is devoid of
any suggestion that military orders were
questioned or implicated, or that the orderly
functions of the United States Navy would be
impaired or impeded by the happening of the
event.
What is particularly compelling about the
instant case is that its factual content defeats
the most consistent rationales for the
application of the so-called Feres doctrine.
Petitioner Frankel, who sustained injuries in
the case which did not prevent him from
continuing on active duty, maintained a first
party policy of insurance which had an
uninsured motorist endorsement consistent
with the application of Virginia law. An
unfortunate consequence of the application of
Feres immunity to the United States was his
inability to recover under his own first party
contract because, also pursuant to Virginia
law, “judgment” could not be obtained against
the United States in its own name even
though pursuant to the Virginia statute at
issue, the entity “immune” defendant could be
substituted for the United States or the
immune driver Davis. The Courts below have
held that Frankel can obtain no remedy for
serious injuries either from the United States
or his own insurance carrier. The Feres bar
had the effect in this case of cancelling a

12
critical provision of a private first party
contract of insurance which had absolutely no
nexus to military discipline or authority.
Factually, the happening of this accident is
indistinct from an everyday automobile tort
with the exception of the status of the
participants and the location.
2. Procedural History
Petitioner was an active duty member of the
Navy at the time of the filing of the initial
complaint.
Plaintiff Joshua E. Frankel filed the original
complaint in the United States District Court
for the Eastern District of Virginia, Norfolk
Division (the “District Court”) on February 23,
2018.
Judge Mark S. Davis presided over the case.
The District Court had subject matter
jurisdiction over Count I of the Complaint
pursuant to 28 U.S.C. § 1346(b)(1), as it is a
claim against the United States for money
damages for personal injuries caused by the
negligent or wrongful act or omission of an
employee of the United States. The District
Court exercised supplemental jurisdiction
over Count II of Plaintiff’s Complaint, which
seeks money damages from Plaintiff’s
Uninsured/Underinsured Motorist Insurance
provider pursuant to Virginia Code § 38.22206 for personal injuries sustained arising

13
out of the same motor vehicle accident,
pursuant 28 U.S.C. § 1367.
On May 4, 2018, the Defendant, the United
States, filed a motion to dismiss the
Complaint for lack of subject matter
jurisdiction pursuant to Federal Rule of Civil
Procedure 12(b)(1). Plaintiff responded to
Defendant’s motion, and Defendant filed a
reply.
The District Court’s Final Order was entered
on January 8, 2019, and the Plaintiff filed his
Notice of Appeal to the Fourth Circuit Court
of Appeals (the “Fourth Circuit”) on January
28, 2019.
The Plaintiff challenged the
District Court’s opinion on the grounds that
the court erred in deciding the Plaintiff’s
claims on the Motion to Dismiss for Lack of
Subject Matter Jurdisdiction because material
facts relevant to the application of the Feres
Doctrine were in dispute.
Plaintiff also
challenged the District Court’s opinion on the
grounds that it erred in granting the United
States’ Motion to Dismiss on the basis that the
Feres doctrine barred the Plaintiff’s claims.
Plaintiff also challeged the District Court’s
opinion on the grounds that the District Court
erred in holding that the Plaintiff could not
maintain an action to recover under his
uninsured/underinsured motorist coverage.
The Fourth Circuit affirmed the decision and
findings by the District Court.

14
REASONS FOR GRANTING THE PETITION
1. Review by this Court is necessary to
fully and finally set forth a true
“incident to service” test, so that it
may reconcile actual conflicts in
various courts of the United States
that have resulted in years of
inconsistent
results
as
service
members seek redress for those
classifications of torts that do not
implicate second guessing military
discipline or judgment.
a. The extent to which the original
policy reasons set forth by the Feres
court have been broadened by
disparate
applications
of
the
“incident to service test” by federal
courts has created a significant
separation of powers concern.
This Court both in Feres v. United States, 340 U.S.
135 (1950) and in United States v. Shearer, 473 U.S.
52, 58 (1985) stated that “Feres seems best explained
by the military discipline rationale and further
stated the core principle underlying the rationale for
its holding in Feres,
The peculiar and special relationship of
the soldier to his superiors, the effects
of the maintenance of such suits on
discipline, and the extreme results that
might obtain if suits under the Tort
Claims Act were allowed for negligent

15
orders
given
or
negligent
acts
committed in the course of military
duty.
In fact, a critical limitation to the Feres court’s
holding that the Federal Tort Claims Act did not
waive sovereign immunity from actions arising from
the tortious conduct of U.S. military personnel
causing injuries to other military personnel engaged
in non-combat activities, was refined in Shearer,
supra, there the Court stated unequivocally that the
KEY inquiry in determining whether an injury was
sustained “incident to service” is whether the suit
requires the civilian court to second guess military
decisions and whether the suit might impair
essential military discipline. Id. at 57 (Emphasis
ours).
In United States v. Johnson, 481 U.S. 681 (1987),
this Court identified three principles underlying
the Feres doctrine: 1) the “distinctively federal”
nature of “the relationship between the Government
and members of its armed forces,” 2) the “generous
statutory disability and death benefits” provided to
military personnel and their families, and 3) the
potential interference of “the judiciary in sensitive
military affairs at the expense of military discipline
and effectiveness.” Id. at 689-90 (citations omitted).
This third factor is considered “the most persuasive
justification for the Feres doctrine.” Schoenfeld v.
Quamme, 492 F.3d 1016, 1019 (9th Cir.
2007) (quoting Dreier v. United States, 106 F.3d 844,
849 (9th Cir. 1997), and stating that Ninth Circuit
“cases have focused mainly on whether the
serviceman’s activities implicate that interest”); see

16
also Bon v. United States, 802 F.2d 1092, 1094 (9th
Cir. 1986) (“[T]he determination of whether an
activity is “incident to service” must focus on the
potential impact of a civil action on military
discipline.”).
Most importantly, this Court in Johnson stated:
This Court has never suggested that
the military status of the alleged
tortfeasor is crucial to the application of
the doctrine.
Id. at 689-690
In struggling to divine what is truly “incident to
service,” district and appellate courts have engaged
in various irreconcilable “tests” that clearly involve a
separation
of
powers
intrusion
into
the
Congressional determination to waive sovereign
immunity as plainly and clearly embodied in 28
U.S.C. §2674. In Johnson, supra, Justice Scalia
observed in a lengthy dissent that the Federal Tort
Claims Act (“FTCA”) 28 U.S.C. §§1346(b), 26712680, renders the United States liable to all persons,
including servicemen, without expressly precluding
FTCA suits brought by servicemen. Indeed, in
Brooks v. United States, 337 U.S. 49 (1949), suit was
permitted by military personnel who had been
injured in a collision with an Army truck while off
duty. The Court expressly noted that Congress must
have had servicemen in mind when it passed the
FTCA but also noted that an attempt by a
serviceman to recover for injuries suffered “incident
to service” would present a different case. Id. at 52.

17
In an attempt to reconcile what Congress truly
meant in harmonizing a waiver of sovereign
immunity with its undeniable awareness of the
circumstances under which a service member might
seek relief, various policy rationales have been
brought to bear including the inconsistencies that
might result if local tort law governed the
“distinctively federal relationship between the
government and enlisted personnel” Feres at 142144, the uniformity of federal benefits, Feres at 144,
145, and undue interference with military discipline,
United States v. Brown, 348 U.S. 110, 112 (1954). In
urging that Feres was “wrongly decided,” Justice
Scalia observed that Congress assumed that the
FTCA's explicit exclusions would bar those suits
most threatening to military discipline, such as
claims based upon combat command decisions, 28 U.
S. C. § 2680(j); claims based upon performance of
"discretionary" functions, § 2680(a); claims arising
in foreign countries, § 2680(k); intentional torts, §
2680(h); and claims based upon the execution of a
statute or regulation, § 2680(a). Or perhaps
Congress assumed that, since liability under the
FTCA is imposed upon the Government, and not
upon individual employees, military decision making
was unlikely to be affected greatly.
In the wake of Johnson, supra, courts have pointed
out that the guidance of this Court has been unclear
as to how much weight should be accorded to each of
the rationales which support the doctrine which has
led to varied approaches by lower courts to
determine whether injuries are “incident to service,”
often resulting in what as some see as nitpicking
differences and incongruous results. Dreier, supra, at

18
852.
For instance, the Fourth Circuit’s rigid
application of what is essentially a situs and status
test, finding that a collision occurring on a military
base with claimant on active duty militated in favor
of a Feres application to bar suit. Stewart v. United
States, 90 F.3d 102, 105 (4th. Cir. 1996), which was
followed in the dismissal of Petitioner’s claim, and is
contrary to a more detailed test such as that in
Durant v. Neneman, 884 F.2d 1350 (10th Cir. 1989)
wherein the court held that despite the situs of the
accident and the status of the members, in a case
where the defendant, while in uniform and driving
his personal vehicle, collided with the plaintiff as
they were engaged with a military physical
readiness exercise, suit could proceed, noting that
In the cases rejecting liability of
military commanders or persons
exercising purely military functions, the
courts have generally expressed concern
for
preserving
the
harmonious
relationships within the military
establishment. For the same reason,
courts have been reluctant to entertain
civil rights actions involving military
personnel. Miller v. Newbauer, 862 F.2d
771 (9th Cir. 1988); Bois v. Marsh, 255
U.S. App. D.C. 248, 801 F.2d 462
(D.C.Cir. 1986); Martelon v. Temple,
747 F.2d 1348 (10th Cir. 1984), cert.
denied, 471 U.S. 1135, 86 L. Ed. 2d 694,
105 S. Ct. 2675 (1985). Thus, our
evolving jurisprudence has created a
zone of protection for military actors,
immunizing actions and decisions

19
which involved military authority from
scrutiny by civilian courts. It is our
conclusion, however, that this zone was
never intended to protect the personal
acts of an individual when those acts in
no way implicate the function or
authority of the military. We can find
nothing that would dictate a contrary
conclusion.
See Durant at 1353.
Durant and courts applying a similar yet distinct
test from that applied in the Fourth Circuit have
simply stated that while civilian courts have a
legitimate concern for protecting the harmony of the
military establishment to prevent an erosion of
discipline or an environment where orders of the
executive/military are second guessed by the
judiciary, these policy concerns should not be
extended to claims that arise outside of the military
function. Engaging in non-military acts even on
military installations or in uniform should not
provide an environment where individual service
persons
acting
negligently
should
avoid
responsibility for their actions in court of
appropriate jurisdiction. In Bartholomew v. Burger
King Corp., 21 F. Supp. 3d 1089 (2014), the district
court denied the United States’ motion to dismiss,
focusing on the fact that plaintiff was off duty, and
the non-military nature of the consumption of food
on base, coupled with the fact that allowing the case
to proceed would hardly underestimate the
“obedience, unity, commitment and esprit de corps”
necessary within the U.S. military, the most

20
compelling Feres factors did not require dismissal of
the suit. Numerous courts have called into question
the serious departure from the original policy
rationales of Feres. Courts have also recognized that
“[t]he viability and applicability of the Feres
doctrine’s various rationales is in doubt.” Snow v.
USMC, 2011 U.S. Dist. LEXIS 45380, 2011 WL
1599231, at *4 (E.D. Tex. 2011)(citing Taber v.
Maine, 67 F.3d 1029, 1038-44 (2d Cir. 1995); Parker
v. United States, 611 F.2d 1007 (5th Cir. 1980); Costo
v. United States, 248 F.3d 863, 875 (9th Cir.
2001)(“The articulated ‘rational basis’ for the Feres
doctrine led in this case, as in many cases, to
inconsistent results that have no relation to the
original purpose of Feres.”). Dismissing an action
brought by the widow of a serviceman who was
killed in a botched appendectomy at a military
hospital, one district court characterized the doctrine
as “unfair and irrational,” and observed that the
plaintiff was “limited to a fraction of the recovery she
might have otherwise received.” Witt v. United
States, 2009 U.S. Dist. LEXIS 9451 at *6-7 (E.D. Cal.
2009).
Nothing about the automobile tort that was the
subject of the action below has any military nexus
but for the status of the actors and the fortuity that
they were stationed in a naval base within the
jurisdiction of the Fourth Circuit United States
Court of Appeals as opposed to perhaps another
judicial district that applies a test that is more in
harmony with the objectives of Feres. The disparate
results highlighted in the foregoing cases establish a
lack of uniformity in the application of laws
involving legal redress for service members injured

21
as the result of the acts of a fellow service member.
This Court in Johnson noted that Congress, in
enacting the FTCA, did not intend that state based
tort law, which could vary widely, depending upon
the random duty station of a service member, might
create variations in recovery in tort for service
members. In fact, the opposite result has obtained
throughout the history of the application of Feres
depending upon each court’s sometimes inconsistent
applications of their own “incident to service” test. A
consequence of this is that service persons have been
able to recover in one United States judicial district
upon one set of facts, but would be unable to recover
upon another set where again the situs of the duty
station would be outside of their control. Further,
Petitioner was on a crosswalk, walking to a gym, off
duty, in civilian gym clothes, and the tortfeasor,
though in the scope of employment, was herself off
duty and engaged in an errand that would take place
at an unspecified time, and for which she had
complete discretion to not only use her personal
vehicle, but where to go and when to do it. Nothing
about Frankel’s military service and nothing about
the task that the tortfeasor who hit him was
undergoing had any substantial connection to their
military service. Importantly, the military had no
interest
in
disciplining
the
tortfeasor
or
investigating the accident as part of its executive
functions, it merely deferred to civilian authority
and the treatment of the tortfeasor in federal
magistrate’s court was no different than any civilian
who would receive a citation on the base. This
establishes a complete lack of true military nexus
despite the duty status of the parties to a routine
automobile pedestrian tort.

22
The “military discipline” rationale is indeed the only
remaining sensible basis upon which to bar a
servicemember’s claim arising out of the negligence
of another servicemember. See Johnson, 749 F.2d at
1533 (quoting Brown, 348 U.S. at 112, 75 S. Ct. at
143) (stating that the “single most important and
defensible, rationale for the Feres doctrine" is the
potential adverse impact on military discipline and
supervision if suits involving "negligent orders given
or negligent acts committed in the course of military
duty" were allowed.”).
In Pierce v. United States, 813 F.2d 349 (11th Cir.
1987), the Eleventh Circuit upheld the application
of Brooks over Feres. In Pierce, the plaintiff was an
active-duty service member who received permission
to leave the military base for an afternoon to take
care of personal business. Id. at 350. While
traveling on a public highway, his motorcycle
collided with a vehicle driven by a naval
recruiter. Id. at 351. The plaintiff was injured and
filed suit under the FTCA. Id. In reversing the
lower court's dismissal, the Eleventh Circuit held
that Feres did not apply because the service
member's activities were not "incident to
service." Id. at 354. The Court reasoned as follows:
the alleged negligence is not of the sort
that would harm the disciplinary
system if litigated. As the Supreme
Court has indicated, "the negligence
alleged in the operation of a vehicle . . .
[would not] require Army Officers 'to
testify in court as to each other's
decisions and actions.'" Shearer, 105 S.

23
Ct at 3044 (quoting Stencel, 431 U.S. at
673). The claims alleged would not
involve
"second-guessing
military
orders," Stencel, 431 U.S. at 673, as the
evidence offered to establish the alleged
negligence would not call into question
the
"management"
of
the
military, Shearer,
473
U.S.
52,
challenge "basic choices about the
discipline, supervision, and control of
the serviceman," Shearer, 105 S. Ct. at
3043, implicate
any
"professional
military judgments," Chappell, 462 U.S.
at 302, or cast doubt upon any "decision
of command." Shearer, 105 S. Ct. at
3044. Thus, the litigation would not
"upset, via the civilian forum, the
delicate relationships which must exist
for the military system to properly
function." Johnson, 749 F.2d at 1539.
Pierce, 813 F.2d at 354. Stripped of the purely
military based underpinnings of the Feres doctrine,
the logic employed by the Court in Brooks and Pierce
is supported by the plain meaning of the FTCA,
which renders the government liable for:
… money damages…for injury or loss of
property, or personal injury or death
caused by the negligent or wrongful act
or omission of any employee of the
Government while acting within the
scope of his office or employment, under
circumstances where the United States,
if a private person, would be liable to

24
the claimant in accordance with the law
of the place where the act or omission
occurred.
28 U.S.C. 1346(b). Nowhere in the FTCA does it
state that a service member cannot recover under
the statute.
2. The Fourth Circuit erred in affirming
the District Court’s dismissal of the
Petitioner’s Complaint, specifically
that aspect of the Complaint that
would have allowed recovery in
accordance with his personal first
party policy of insurance, which
incorporated provisions mandated by
Code of Virginia § 38.2-2206.
Even assuming arguendo that Feres was properly
applied, this would simply allow for a proceeding
against a defendant that was “uninsured” and for
which Petitioner paid from his personal funds for a
policy of insurance issued by a carrier which was
unjustly enriched by reliance on a doctrine that has
its roots in the preservation of the military
discipline, not the cancellation of private contracts.
The text of the relevant portion of 38.2-2206(F) of
the Code of Virginia clearly sets forth a legislative
intent that “immune defendants”
would be
substituted in the place of John Doe and recovery
under a first party policy of insurance could
nonetheless occur. A defendant known as “immune
defendant” in place of the tortfeasor Davis would not

25
defeat sovereign immunity as such action would be
against a nominal defendant.
In naming the tortfeasor as a nominal defendant,
Frankel is not seeking to hold the tortfeasor or the
United States liable. Indeed, Section 38.2-2206(F)
prevents that from happening. It provides that the
judgment “shall proceed against the named
defendant although any judgment obtained against
an immune defendant shall be entered in the name of
"Immune Defendant" and shall be enforceable
against the insurer and any other nonimmune
defendant as though it were entered in the actual
name of the named immune defendant. Va. Code
Ann. § 38.2-2206(F). Thus, neither the United
States nor Davis would ever be held liable, because
the judgment would be entered in the name of
Immune Defendant. This case would never proceed
to judgment against the United States or Davis, but
against an unnamed person. Therefore, the Feres
doctrine would not be violated.
The District Court and the Fourth Circuit Court of
Appeals based their decisions on the requirement
under Section 38.2-2206(F) that the plaintiff obtain a
judgment against the named defendant, which she
can then seek to collect from her insurer. But any
judgment obtained against an immune defendant
shall be entered in the name of ‘Immune
Defendant.’” Id. The named defendant is judgmentproof under the statute. Neither the United States
nor Davis would have been subjected to a judgment
if the District Court had allowed the claim to go
forward.

26
In dismissing Frankel’s uninsured motorist claim,
the District Court, affirmed by the Fourth Circuit,
relied on its decisions in Boggs-Wilkerson v.
Anderson, No. 2:10CV518, 2011 U.S. Dist. LEXIS
149994, (E.D. Va. Nov. 17, 2011), adopted by 2011
U.S. Dist. LEXIS 149798 (E.D. Va. Dec. 30, 2011).
There, the plaintiff, an active duty service member,
sued another active duty service member in state
court for injuries arising out of an automobile
accident near the Naval Station Norfolk in Norfolk,
Virginia. The plaintiff did not name the United
States as a party defendant in the state court suit.
The plaintiff also sued both the tortfeasor and the
United States in this district court pursuant to the
FTCA. The United States removed the state court
case to the District Court, the cases were
consolidated, and plaintiff received leave to seek
remand should the United States prevail on its
argument that the claims against the United States
were barred by the Feres doctrine. The United
States moved to dismiss the FTCA claim, and the
Court granted the motion on the basis that the
United States was immune from suit. The plaintiff
then moved for remand or, in the alternative, to have
the Court retain jurisdiction and proceed to decide
the state uninsured motorist claim. The District
Court denied plaintiff’s motion and dismissed his
case.
The Magistrate in Boggs-Wilkerson interpreted
Section 38.2-2206(F) to require that “the plaintiff
must obtain a judgment against the named
defendant which she can then seek to collect from
her insurer.”
Id. at *6.
Section 38.2-2206(F)
contains no such language; it clearly provides that

27
the judgment in such cases is entered against an
unnamed party referred to as “Immune Defendant.”
Although the case proceeds against the named
defendant, he or she can never be held liable. As
such, Section 38.2-2206(F), in essence, acts as an
exception to the requirement that the plaintiff obtain
a judgment against the uninsured defendant before
seeking recovery from his UM insurance carrier.
Once Frankel has established the legal liability of
the “Immune Defendant,” GEICO is contractually
obligated to compensate him for his injuries. Thus,
the Magistrate and the District Court’s statements
in their opinions in Boggs-Wilkerson that the
dismissal against the United States in that case was
necessary because Section 38.2-2206(F) “creates no
exception to [the United States’] immunity from
suit,” are simply incorrect.
The lower courts’ refusal to allow Frankel to pursue
his uninsured motorist claim presents a classic
illustration of the manifest injustice created by the
Feres doctrine. The courts below stretched Feres
beyond its breaking point and into the realm of the
absurd. Even though neither the United States nor
Davis would suffer any harm if Frankel were
permitted to proceed, the lower courts compounded
the injury of dismissal of Plaintiff’s FTCA claim by
blocking the only avenue of recovery he has left.
That remaining avenue only existed because Frankel
paid premiums for it to protect him in the event he
was injured by an uninsured or immune defendant.
The only beneficiary of the lower courts’ decisions
that Frankel cannot pursue a judgment pursuant to
Section 38.2-2206(F) is GEICO. Because of that
decision, GEICO will enjoy a windfall by escaping

28
any payment under the policy for which Frankel has
dutifully paid his premiums.
The intent of the Virginia statute was clearly to
provide a means for compensating innocent drivers
who are injured by immune defendants – not simply
those immune as a result of Virginia state law. By
applying the Feres doctrine to block his recovery, the
lower courts left Frankel with NO remedy under an
insurance policy he purchased, and for which GEICO
accepted premiums, to protect him in the event he
was injured by an uninsured or immune driver.
CONCLUSION
The significant departures from the only sound basis
for any limitation on the right of a service member to
sue another service member pursuant to state tort
law have created the very inconsistencies in
applications of the law that Feres sought to avoid.
Congress, in its waiver of sovereign immunity, set
forth a significant number of exceptions to such
waiver in the statutory framework quoted herein.
Nowhere has Congress stated that in other
circumstances, one military person cannot sue
another. Courts have openly struggled with an
“incident to service” test and have at times dismissed
cases while openly criticizing the lack of guidance
and the injustice created by that outcome. If Feres is
itself not overruled in recognition of its collision with
Congress’ stated intent, at the least this Court
should set forth a specific level of scrutiny of the
facts of a particular incident with the SOLE view of
determining under the totality of the circumstances
whether exercising jurisdiction over such action

29
would necessarily involve judicial intrusion into
purely military functions, discipline and mission.
Routine incidents which but for the status and situs
of their location would be easily disposed of pursuant
to relevant state law without any mention of
military status or connection should not be
dismissed under what are increasingly strained
applications of the Feres immunity.
Judicially
created immunities which arguably contravene
Congressional intent should be strictly scrutinized
and limited in application.
Wherefore, Petitioner prays that this Honorable
Court grant Petitioner a writ of certiorari and afford
him an opportunity for a decision on the merits on
the important and compelling issues presented in
the petition and which could potentially affect tens
of thousands of service members who may not
receive a remedy simply because they happened to
be stationed in a judicial district that applies a more
rigid “incident to service” test than another judicial
district, which would provide a remedy for another
service member upon an identical set of facts. Such
circumstances should not stand.
Respectfully submitted,
Allen W. Beasley
Counsel of Record
Michael F. Imprevento
Breit Cantor Grana Buckner, PLLC
600 22nd Street, Suite 402
Virginia Beach, Virginia 23451
(757) 622-6000
abeasley@breitcantor.com
mimprevento@breitcantor.com

